No.

2J>-liP2-

3n ®Ije

Supreme Court of tlje Untteti States!
FILED
DEC 0 7 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

Kaysha F.N. Dery
Pro Se Applicant,
v.
Attorney General of the United States;
U.S. Department of Homeland Security;
U.S. Citizenship and Immigration Services;
U.S. Immigration and Customs Enforcement;
Scott Robinson, ZCH 193;
Nevada Southern Detention Center;
and Brian Koehn.
Respondents.
Petition for Extraordinary Writ and Original Petition for Writ of Habeas
Corpus
To the Honorable Amy Coney Barrett, Associate Justice of the United States
Court of Appeal and Acting Circuit Justice for the Seventh Circuit
Kaysha F.N. Dery
1292 95th Street,
North Battleford, SK S9A 0G2
Tel:
1 306 441-7010
Email: kaysha.dery@gmail.com

QUESTIONS PRESENTED
1. Is it constitutional to detain someone who is fleeing torture and terrorism? Is
it constitutional when that person is the posterity of the UNITED STATES?
2. Who are the people of the UNITED STATES? Is it the posterity of the UNITED
STATES? Is it all persons born or naturalized in the UNITED STATES and their
posterity? Is it INDIANS born within the territorial limits of the UNITED
STATES and their posterity? Or is it all of the above?
3. What is an INDIAN? Is it the indigenous peoples? Is it posterity of the
indigenous peoples? Is it the METIS? Or is it all of the above? Or is it the
interpretation of 50% blood quantum under the Immigration and Nationality
Act? Does the UNITED STATES have the right define the same?
4. Do the METIS and their posterity, being taxed or taxable INDIANS, which were
deported to CANADA, have the right to be counted as part of the whole
number of persons in each State for the purpose of appointing
representatives for the electors for President and Vice-President of the
United States, Representatives in Congress, the Executive and Judicial
officers of a State, or the members of the Legislature thereof?
5. Is evicting and/or banning a person or persons from the UNITED STATES when
such person or persons has a right to be on AMERICAN soil or attempting to do
the same a restriction of their liberty and a form of illegal confinement and

i

thereby qualify them for a Writ of Habeas Corpus? What Court would have
jurisdiction of such writ?
6. Is the right to an investigation under a Writ of Habeas Corpus suspended if
the Detainees dies during or as a result of a restriction of liberty or illegal
confinement—especially when the subject matter affects the rights and
freedoms of the people of the UNITED STATES?
7. What is a person under the constitution? Is it a human being or human
corpus? Is it an INDIAN? Are the people of the UNITED STATES persons? Is an
alien a person—especially when they have the right to abide on AMERICAN
soil? Or is it all of the above?
8. Is it constitutional to detain a person under any law that is not criminal law?
9. Is it constitutional for a person or persons to be deprived of life, liberty, or
property by IMMIGRATION COURT when the same is not part of the UNITED
STATES judicial branch responsible for the due process of law, but instead is
an administrative body which is a part of the DEPARTMENT OF JUSTICE
headed by the ATTORNEY GENERAL OF THE UNITED STATES?
10. Is it constitutional to detain someone indefinitely pursuant to no law?
Especially when they have brought evidence from two witnesses to treason?
11. Does the Judiciary have judicial immunity from shielding high treason,
terrorism, torture and other heinous crimes?

n

12. Can an administrative body be found guilty of conspiracy to commit murder
when a duly authorized representative of such body acting under the colour
of authority of the UNITED STATES in such body evicted and/or banned a
person or persons to a foreign jurisdiction having purportedly reviewed
evidence in their official capacity that demonstrated such jurisdiction was
unsafe, and does such representative have judicial immunity from conspiracy
to commit murder through such body?
13. Is a Court that suspended a Writ of Habeas Corpus for any reason and by any
means not permitted by the United States Constitution a competent authority
for conducting an investigation under such writ—especially when the subject
matter includes claims of torture under the UN Torture Convention binding
the United States?
14. Given the common law nature of the Privilege of Writ of Habeas Corpus, does
a corrupt court constitute a suspension of the Privilege of Writ of Habeas
Corpus for person or persons held within its jurisdiction?
15. Is suspending the Privilege of Writ of Habeas Corpus for any reason and by
any means not permitted by the United States Constitution an act of treason?
16. SUSPENSION OF PRIVILEGE OF WRIT OF HABEAS CORPUS
17. The United States District Court for the District

of

Nevada located at

333 Las Vegas Blvd. South Las Vegas, NV 89101 received by mail an Ex
Parte Petition for a Writ of Habeas Corpus submitted by Robert A. Cannon on

in

behalf of the Pro Se Applicant. Such petition was filed on Tuesday, December
8, 2020 as a civil case with the case number of 2:20-cv-02218-JAD-DJA and
was misinterpreted as pro se legal representation and was suspended in
violation of 28 U.S. Code § 2243 under the guise of the following: “Due to this
court's extremely heavy case load this review process may take several
weeks.” Such suspension in cooperation with the Pro Se Applicant’s
subsequent deportation would allegedly render the Writ of Habeas Corpus
moot, but the same is currently in question; mens rea has yet to be proven in
such case, however, actus reus is clear, as it would yet again hinder an
official investigation into the events surrounding the mismanagement of the
Covid emergency relating to the Pro Se Applicant’s arbitrary,
unconstitutional, and unlawful detainments in both CANADA and the UNITED
STATES. Robert A. Cannon on behalf of the Pro Se Applicant delivered an
Ex Parte & Pro Se Petition for a Writ of Habeas Corpus to this Court on
December 28, 2020. In a letter dated December 31, 2020 by Scott S. Harris,
Clerk authored by Clara Houghteling purported that there was no motion for
leave to proceed in forma pauperis, citing Rules 33.2(a) and 39 even though
the letter was returned with the submitted $300 filing fee. She also stated
that the petition did not show how the writ will be in aid of the court’s
appellate jurisdiction, what exceptional circumstances warrant the exercise
of the court’s discretionary powers, and why adequate relief cannot be
obtained in any other form in any other court Rule 20.1. The petition cited 28

IV

U.S.C. § 2241 and 2242 for the original jurisdiction, constitutional questions
that only this Court answer as some relate to treaties, federal treason and
the constitutionality of the Immigration Court as a whole. The petition
\

reasoned that court has the authority to answer the questions and the
jurisdiction over federal prisoners being held in the State of Nevada
pursuant to the authority of those operating out of the State of Illinois. These
arguments more than exceeded the purported deficiencies stated by Clara
Houghteling despite the fact that it was not an extraordinary writ subject to
Rule 20. Furthermore Clara Houghteling incorrectly purported that Privilege
of Writ of Habeas Corpus could only be accessed if filed by a lawyer,
otherwise this privilege would remain suspended indefinitely. The Privilege
of Writ of Habeas Corpus has never been restricted as such as it prevents the
Invariable Pursuit of the Object. Even more outrageous than the suspension
of the Privilege of Writ of Habeas Corpus, she stated that rule contravention
was a justification in removing evidence of the Invariable Pursuit of the
Object from the Court, making her a participant in its pursuit. In another
matter submitted by the Pro Se Applicant, Clara Houghteling presumed to
make a decision on a petition to set precedent without placing it before a
judge and caused a severe disruption of, and severe interference with an
essential service both in the United States and in Canada and hindered the
development of critical infrastructure to prevent the spread of covid.

v

18. PRIVILEGE OF WRIT OF HABEAS CORPUS
19. The Privilege of Writ of Habeas Corpus is guaranteed by the United States
Constitution except in the case of Rebellion or Invasion for the prevention or
speedy relief of a person or persons seized or imprisoned without due process
of law. Such privilege guarantees that “You shall have the body” and when
an Application for a Writ of Habeas Corpus is submitted to a court, justice, or
judge on your behalf, the same shall forthwith direct the Writ to any person
who has seized or imprisoned you, such person must bring or cause your body
to be brought before the same within three days, unless distance requires
additional time, for an investigation into the lawfulness of your seizure or
imprisonment. Before slavery was abolished by the 13th Amendment except
for parties duly convicted for crime, the Privilege of Writ of Habeas Corpus
was often applied to alleged slaves claiming freedom held by private parties.
The Privilege of Writ of Habeas Corpus is a CHRISTIAN right that guards the
Life and Liberty of all people inside and outside of the UNITED STATES. Any
person or persons who attempts to suspend or worse abolish this CHRISTIAN
right are ANTI-CHRISTIAN and seek to abolish true CHRISTIANITY.
20. PARTIES
21. This petition stems from an Ex Parte Petition for a Writ of Habeas Corpus
proceeding in which the Detainees is the Petitioner before the UNITED STATES
District Court for the District

of

Nevada. The Detainees is a federal

prisoner awaiting deportation and in the physical custody of the Respondent

vi

Brian Koehn, warden of Nevada Southern Detention Center in
Pahrump, Nevada which is contracted by U.S. DEPARTMENT OF HOMELAND
SECURITY to detain alleged aliens such as the Detainees. Respondents SCOTT
Robinson, ZCH l93from the Chicago Asylum Office in the State

of

ILLINOIS or his supposed successor COLLAZO is a custodial official acting
within the boundaries of the judicial district of the UNITED STATES DISTRICT
Court

for the

District

of

Nevada. The Respondent Scott Robinson,

ZCH 193 is an asylum officer under the authority of U.S. IMMIGRATION AND
Customs Enforcement, which is under the authority of U.S. Citizenship
and Immigration

Department

of

Services, which is under the authority of U.S.

Homeland Security, which is under the authority of the

Attorney General of the United States. The Detainees is under the
direct control of the Respondents and their agents.
22. JURISDICTION
23. This Court has jurisdiction for this Petition for Extraordinary Writ and
Original Petition for Writ of Habeas Corpus pursuant to Rule 20 and 28
U.S.C. § 1651, 2241 and 2242 which is the third petition for the Pro Se
Applicant which has not been sentenced by any court. This application
proposes constitutional questions that only this Court can answer as some
relate to treaties, federal treason, and the constitutionality of IMMIGRATION
COURT as a whole. This is the only Court that has both the authority to
answer these questions and has jurisdiction over federal prisoners being held

Vll

in the STATE OF NEVADA pursuant to the authority of those operating out of
the STATE

of Illinois;

there is no better Court to handle this application

which challenges the decision of the UNITED STATES DISTRICT COURT FOR
THE DISTRICT

of

Nevada and Clara Houghteling on behalf of the Supreme

Court of the United States to suspend the Privilege of Writ of Habeas Corpus
of the Pro Se Applicant. The UNITED STATES DISTRICT COURT FOR THE
DISTRICT

of

Nevada is not a competent authority to assess its own decision

to suspend the Privilege of Writ of Habeas Corpus, nor is the UNITED STATES
Court

of

Appeals for the Ninth Circuit a competent authority to answer

the constitutional questions purported in this application. Finally Clara
Houghteling is not a competent authority to suspend the Privilege of Writ of
Habeas Corpus, and the Pro Se Applicant expects further punishment from
the United States Court of Appeals for the Ninth Circuit as it is not a public
court and every private hearing in this district has punished her. No other
Court can deal with federal treason, the first of its kind in the United States.
24. PRO SE LEGAL REPRESENTATION
25. The Privilege of Writ of Habeas Corpus is a common-law writ guaranteed by
the United States Constitution as no Rebellion or Invasion was claimed as
the reason for the suspension of such Writ. Any person may apply for such
Writ on behalf of any person that has been deprived of liberty. The Writ of
Habeas Corpus stems from British common law and the Habeas Corpus Act
1679 which reads “For the prevention whereof and the more speedy Releife of
vm

all persons imprisoned for any such criminall or supposed criminall Matters
whensoever any person or persons shall bring any Habeas Corpus directed
unto any Sheriffe or Sheriffes Goaler Minister or other Person whatsoever for
any person in his or their Custody”.

IX

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

THE GREAT WRIT

1

SUSPENSION OF THE GREAT WRIT

11

NATIONAL AND INTERNATIONAL IMPORTANCE
PARTIES

vi
,V11

JURISDICTION

IX

TO THE UNITED STATES COURT OF APPEAL:

1

STATEMENT OF THE CASE

2

A. Engineering Reimagined

2

B. Criminal Negligence.......

3

C. The July 23rd Terrorist Attacks

6

D. Habeas Corpus Ad Subjiciendum.......................................

10

E. A Metis Plea for Safety and Asylum..................................

13

F. Another Habeas Corpus Ad Subjiciendum........................

14

G. Extreme Prejudice............................ ...................................

17

H. The Extraordinary Condition.............................................

20

I. The Supreme Court of the United States...........................

22

J. Another Another Application for Writ of Habeas Corpus

24

K. Petition to Congress.............................................................

25

L. More Extreme Prejudice.......................................................

28

REASONS FOR GRANTING THE APPLICATION

x

30

/

TO THE HONORABLE AMY CONEY BARRETT, ASSOCIATE JUSTICE OF
THE UNITED STATES COURT OF APPEAL AND ACTING CIRCUIT
JUSTICE FOR THE SEVENTH CIRCUIT:
Pursuant to Rule 20 and 22 of the Rules of this Court, 18 U.S.C. § 2340A and28
U.S.C. § 1561, 2241 and 2242, UN Torture Convention, UN Refugee Convention,
UN Rights of Indigenous Peoples, Article 1 section 9 clause 2, Article 3 section 3,
Amendment IV, V, VIII of the United States Constitution, and the Declaration of
Independence the Pro Se Applicant KAYSHA F.N. Dery, an American Indian Metis
the posterity of those forcibly deported from their ancestral homelands and born on
American soil she is being indefinitely detained in the State of Nevada, respectfully
requests a Writ of Habeas Corpus be issued and directed to the Respondents to
overrule the suspension of the Privilege of Writ of Habeas Corpus as part of a
MASONIC conspiracy to cover up the mismanagement of the Covid emergency which
is an act of treason against the UNITED STATES and 28 U.S.C. § 2243 both
authorizes arid compels the issuance of such writ.
Catholics and Christians have had their rights and freedoms, specifically the
Privilege of Writ of Habeas Corpus, the free exercise of RELIGION, and the
unalienable rights to LIFE, LIBERTY, and pursuit of HAPPINESS, taken by the
MASONIC conspirators through the mismanagement of the Covid emergency, as
predicted by the JESUIT affiliated CARLO MARIA VlGANO, Titular Archbishop of
Ulpiana, when he alleged that such mismanagement has furthered the dissolution
of the social order so as to build a world without freedom: Solve et Coagula, as the

1

MASONIC adage teaches. The supposed presidential elect JOSEPH R. BlDEN, has
advocated further measures to be enforced in the name of the Covid emergency and
the United States District Court for the District

of

Nevada has endorsed his

claim by suppressing evidence of its mismanagement.
STATEMENT OF THE CASE
A.

Engineering Reimagined

Dale J.S. Richardson (“Dale”) and his daughter Kaysha F.N. Dery (known as the
Detainees) sought opportunity to minister SEVENTH-DAY ADVENTIST CHURCH
doctrine to the Battlefords and surrounding Indigenous communities. On April 1,
2020, DALE founded DSR Karis Consulting Inc. (“DSR Karis”), a Canadian
federal corporation pursuant to the Canada Business Corporations Act which is a
distinct natural person under subsection 15(1) of the same, to further this ministry,
specifically in the field of mechanical engineering.
DSR KARIS, named after his infant daughter KARIS K.N. RICHARDSON (“KARIS”),
sought to help local businesses with their Covid response by installing safe Heating,
Ventilating, and Air Conditioning systems that mitigate the spread of contagions,
an essential service. DSR KARIS was pursuing opportunities to help educate
indigenous persons and women in the field of engineering and offered its essential
services at cost to all not-for-profits and houses of worship in the Battlefords and
surrounding areas in an effort to help faith communities open their doors again,
this is engineering reimagined (see Appendix AC on page 372a). Unfortunately, due

2

to a series of coordinated efforts by unscrupulous persons, this ministry was
hindered (see Appendix Z on page 295a).
A.

Criminal Negligence

DSR KARIS was hindered by the criminally negligent recommendations for Covid
response from the SASKATCHEWAN HEALTH AUTHORITY which motivated businesses,
already cash-strapped from the global shutdown, to hire unqualified professionals to
install Heating, Ventilating, and Air Conditioning systems to mitigate the spread of
contagions, such systems were not effective from an engineering perspective and
threatened the safety of the general public (see Appendix AF on page 388a and
Appendix AM on page 443a). After repeated pleas to the SASKATCHEWAN HEALTH
AUTHORITY to have a qualified engineer review its recommendations, on July 7
2020, DSR KARIS notified INNOVATION CREDIT UNION about the criminal negligence
requesting that it fulfill its fiduciary duty to its members by notifying them of the
same. INNOVATION CREDIT UNION responded by conspiring to limit DSR KARIS’s
access to INNOVATION CREDIT UNION and its members by ROYAL CANADIAN
MOUNTED Police intervention (see Appendix BZ on page 798a). DSR KARIS made a
complaint and provided evidence to the ROYAL CANADIAN MOUNTED POLICE about
the criminal negligence under sections 219 and 220 of the Criminal Code of Canada
which to its knowledge was never investigated (see Appendix AN on page 447a).
While DSR KARIS was pursuing the foregoing, its Chief Executive Officer, DALE,
was being persecuted by the SEVENTH-DAY ADVENTIST CHURCH in collusion with his

3

wife Kimberly A. Richardson (“Kim”) for adhering to its doctrine (see Appendix
AB on page 364a, Appendix AE on page 379a, and Appendix AL on page 442a) and
his infant daughter KARIS was kidnapped by his wife KlM on June 1, 2020 under
threat of ROYAL CANADIAN MOUNTED Police intervention and tortured as a person
and third person under 269.1 of the Criminal Code of Canada (see Appendix AJ on
page 435a and Appendix AN on page 447a). The members responsible for such
persecution advocate MASONIC dogma in the church (see Appendix BU on page
745a) and have ties to the Saskatchewan Health AUTHORITY, even possessing the
influence to hire Dale’s daughter the Pro Se Applicant as a permanent employee
and peace officer at SASKATCHEWAN HOSPITAL where she was tortured under 269.1
of the Criminal Code of Canada. The Pro Se Applicant made complaints to the
Canadian Union

of

Public Employees about workplace safety, having prior

knowledge of the criminal negligence being the Chief Communication Officer of
DSR KARIS, and about discrimination against those of Indigenous and Metis
descent in her workplace to which she belongs as she identifies as European,
Caribbean, and Metis (see Appendix AP on page 482a and Appendix AQ on page
483a). Such discrimination based on race by employees of SASKATCHEWAN HOSPITAL
inflicts severe mental pain and suffering on such minorities in their care and is
torture under 269.1 of the Criminal Code of Canada as all permanent employees of
SASKATCHEWAN Hospital are peace officers and officials under the same.
In the interest of the general public, DSR KARIS with its low socioeconomic status,
sought remedy by pro se legal representation against the SASKATCHEWAN HEALTH
4

AUTHORITY for its criminal negligence under sections 219 and 220 of the Criminal
Code of Canada with INNOVATION CREDIT UNION and the ROYAL CANADIAN
MOUNTED Police as joint respondents for conspiracy and accessory after the fact
under sections 465(1) and 463 of the Criminal Code of Canada and with the
SEVENTH-DAY Adventist Church as a joint respondent for its members affiliation
with the SASKATCHEWAN Health Authority and their relentless persecution of its
Chief Executive Officer, DALE, and Chief Communication Officer, the Pro Se
Applicant, which seemingly happened in response to investigations into the
Saskatchewan Health Authority, Innovation Credit Union, and the Royal
Canadian Mounted Police.
DSR KARIS submitted a pro se originating application in the COURT OF QUEEN’S
Bench

for

Saskatchewan in the Judicial Centre

of

Battleford on July 16,

2020 which sought the following:
orders for an investigation into INNOVATION CREDIT UNION under The Credit Union
Act, 1998, a Saskatchewan statute;
orders for the ROYAL CANADIAN MOUNTED POLICE to stop preventing DSR KARIS
from contacting CONSTABLE SEKELA, the lead investigator for its complaint; and
protective orders against the respondents as they had been threatening the officers
of DSR KARIS.
The in chambers date for such application was scheduled for July 23, 2020 (see
Appendix AO on page 476a).
5

A.

The July 23rd Terrorist Attacks

After many failed attempts by the SASKATCHEWAN HEALTH AUTHORITY and ROYAL
CANADIAN Mounted Police to intimate and coerce the Pro Se Applicant and her
father DALE from attending the hearing on behalf of DSR KARIS under the guise of
the Covid emergency and self-isolation, the Pro Se Applicant and her father DALE
decided in the interest of the general public and CHRISTIANS and CATHOLICS
everywhere to attend the hearing on behalf of DSR KARIS to expose the
mismanagement of the Covid emergency in Saskatchewan (see Appendix AR on
page 487a).
On July 23rd, 2020 at approximately 10:00 AM CST, DALE, the power of attorney
for DSR Karis, was detained under The Mental Health Services Act and the Pro Se
Applicant, the Chief Communication Officer for DSR KARIS, was detained under
The Public Health Act, 1994 while acting on behalf of DSR KARIS. Dale and the
Detainees were both detained at the same time and place by six ROYAL CANADIAN
Mounted Police officers and the Court Deputy Sheriff for different reasons
with no declared warrant in front of the COURT OF QUEEN’S BENCH FOR
Saskatchewan in the Judicial Centre

of

Battleford minutes before they were

to attend a hearing for DSR KARIS to expose the mismanagement of the Covid
emergency in Saskatchewan (see Appendix ML on page 547a and Appendix BA on
page 556a). As predicted by CONSTABLE READ during the unlawful arrest, JUSTICE
•

R.W. ELSON adjourned the hearing; it was adjourned sine die, meaning it could not
be reopened without the consent of the respondents.
6

While DSR KARIS was pursuing the foregoing litigation, Dale’s wife filed for divorce
under the legal counsel of PATRICIA J. MEIKLEJOHN of MATRIX LAW GROUP LLP, the
partner of CLIFFORD A. HOLM who was one of the influential persons advocating
MASONIC dogma in the church (see Appendix AI on page 433a). The in chambers
date for such divorce petition was scheduled for July 23, 2020 on the same docket
seemingly as punishment for pursing litigation on behalf of DSR KARIS against the
Seventh-Day Adventist Church, the Saskatchewan Health Authority,
Innovation Credit Union, and the Royal Canadian Mounted Police for the
mismanagement of the Covid emergency in Saskatchewan. JUSTICE R.W. ELSON
also presided over Dale’s divorce case and on July 22, 2020 requested that his wife
KlM draft an interim order for the hearing the following day; JUSTICE R.W. ELSON
granted this interim order while DALE was absent, as he was detained for mental
health, which gave his wife KlM possession of their house and DSR KARIS’s
corporate records and registered office and gave her custody of KARIS (see Appendix
AY on page 540a). Later that day, KlM with her family and in the presence of the
Royal Canadian Mounted Police came and took possession of DSR Karis’s
property except for its corporate phone from its only remaining agent through
intimation and coercion by armed ROYAL CANADIAN MOUNTED POLICE officers (see
Appendix BL on page 634a).
When the foregoing MASONIC conspirators discovered DSR KARIS’s articles of
incorporation, specifically the share transfer restrictions clause, they realized their
egregious failure (see Appendix AD on page 375a). The shares could only be
7

transferred upon consent through resolution by the sole director of DSR KARIS,
Dale, and declaring him mentally insane was of no consequence, the shares could
not be transferred to KlM. DSR KARIS offers essential services and interfering with
or causing a severe disruption to an essential service is terrorist activity under
subsection 83.01(l)(b)(ii)(E) of the Criminal Code of Canada and every person who
knowingly participates in carrying out terrorist activity is guilty under 83.18(1) of
the same. Since July 23, 2020, DSR KARIS has been unable to conduct its essential
services, and the MASONIC conspirators have sought to cover up their crime.
DALE and the Pro Se Applicant were both tortured by peace officers and officials
under section 269.1 of the Criminal Code of Canada and the United Nations
Convention against Torture and Other Cruel, Inhuman or Degrading Treatment or
Punishment binding in Canada during their arbitrary, unconstitutional, and
unlawful detainment. DALE was taken to BATTLEFORDS MENTAL HEALTH CENTRE
and was strapped to a table by ROYAL CANADIAN MOUNTED POLICE while
Saskatchewan Health Authority officials drugged him against his will. Dale
was administered drugs against his will whenever he asked for the warrant for his
detainment which was finally given to him after a few days of detainment (see
Appendix AT on page 499a). Dale was admitted to Battlefords Mental Health
CENTRE on July 24, 2020 for “paranoid religious, persecutory and grandiose
delusions” (see Appendix AU on page 501a and Appendix AV on page 504a).
CONSTABLE Burton said “cause it’s a little different—Saskatchewan health care
compared to Manitoba” in response to Dale’s mother Agatha Richardson saying
8

“You should see his feet, I mean we don’t restrain people like that” and that he had
been there for 7 years or so (see Appendix AX on page 532a). After being
interrogated at BATTLEFORDS UNION HOSPITAL for hours, the Pro Se Applicant was
taken by Royal CANADIAN MOUNTED POLICE to SASKATCHEWAN HOSPITAL, where
she was also employed as a peace officer and had active complaints against through
CANADIAN Union OF Public Employees regarding discrimination and occupational
health and safety issues with its Heating, Ventilating, and Air Conditioning
systems (see Appendix BB on page 563a). The Pro Se Applicant was detained while
her union meeting was outstanding and she has never had the opportunity to meet
with the union since, but is still a permanent employee and peace officer at
SASKATCHEWAN Hospital. Dale and the Pro Se Applicant were only released from
detainment after an Application for a Writ of Habeas Corpus Ad Subjiciendum was
filed for them.
A.

Habeas Corpus Ad Subjiciendum

Robert A. Cannon made repeated attempts to file an Application for a Writ of
Habeas Corpus Ad Subjiciendum for DALE and the Pro Se Applicant against the
Saskatchewan Health Authority and Royal Canadian Mounted Police, first
ex parte and after with notice with overwhelming evidence of their arbitrary,
unconstitutional, and unlawful detainment which included video, audio, and
documentary evidence; the application was submitted to a different judicial centre
than Battleford, the COURT OF QUEEN’S BENCH FOR SASKATCHEWAN IN THE
JUDICIAL Centre OF Saskatoon in accordance with its court rules as it was closest
9

to Robert A. Cannon’s residential address. Robert A. Cannon’s third amendment to
the Application for a Writ of Habeas Corpus Ad Subjiciendum was served to the
Saskatchewan Health Authority, but the Royal Canadian Mounted Police •
refused service for such application and stated that Robert A. Cannon’s evidence
would not be added to the ongoing criminal negligence investigation unless he was a
witness, in which case he would have to attend the Battlefords ROYAL CANADIAN
Mounted Police detachment, the Royal Canadian Mounted Police detachment
responsible for Dale’s and the Pro Se Applicant’s detainment (see Appendix BD on
page 576a). At the time, Robert A. Cannon did not feel comfortable leaving the
jurisdiction of the Saskatoon police where the ROYAL CANADIAN MOUNTED POLICE
have no jurisdiction. The Pro Se Applicant was released before the third
amendment and DALE was released shortly after the third amendment was served
to the Saskatchewan Health Authority which is responsible for Saskatchewan
Hospital, Battlefords Union Hospital, and Battlefords Mental Health

Centre.
Robert A. Cannon with DALE and the Pro Se Applicant proceeded to attend the
hearing for the foregoing application supposedly scheduled for Aug 18, 2020 to
request that an investigation be conducted into their arbitrary, unconstitutional,
and unlawful detainment. They were denied entry to the hearing as the registrar
claimed that the such application did not exist, after such was disproven then
claimed that it was never served, and after such was disproven then claimed that it
was unfiled despite proof of the dependent notice of expedited procedure being filed
10

(see Appendix BE on page 579a). After these incoherent discussions with the
registrar, Robert A. Cannon, DALE, and the Pro Se Applicant proceeded to flee the
jurisdiction of Saskatchewan without delay.
Robert A. Cannon later filed by mail the fourth and fifth amendments to the
Application for a Writ of Habeas Corpus Ad Subjiciendum which added Dale’s
infant daughter KARIS to those applied for, additional respondents, and orders from
the previous application by DSR KARIS that was interfered with. JUSTICE N.D.
CROOKS presided over this application on September 10, 2020 and dismissed the
matter in the first hearing on technicalities and without hearing the evidence in
court, despite purporting that she reviewed the evidence in her official capacity,
JUSTICE N.D. Crooks ordered Robert A. Cannon to pay costs which is expected in
an Application for a Writ of Habeas Corpus Ad Subjiciendum if it is determined by
the justice to be frivolous and vexatious (see Appendix BK on page 631a). On
September 22, 2020, Robert A. Cannon filed an appeal to JUSTICE N.D. CROOKS’s
decision in the COURT OF APPEAL FOR SASKATCHEWAN (see Appendix BN on page
642a). Given the corruption demonstrated in the COURT OF QUEEN’S BENCH FOR
Saskatchewan, the Royal Canadian Mounted Police which is the national
police force, and the Seventh-Day Adventist Church which is a centrally
governed international church, the Pro Se Applicant did not feel safe in CANADA
anymore and decided to seek refuge in her ancestral homeland in the STATE OF
MONTANA on October 1, 2020.

11

On October 5, 2020, JUSTICE J.A. SCHWANN of the COURT OF Appeal FOR
SASKATCHEWAN ruled that Robert A. Cannon’s lawful application for dispensing
with service which was interpreted as ex parte would not be permitted despite the
overwhelming evidence of corruption and she ordered that Robert A. Cannon would
need to serve the respondents appeal books to proceed with the hearing which
would take multiple months (see Appendix BO on page 646a); such order
constitutes a suspension of Writ of Habeas Corpus which is permissible in Canada
as the Canadian Charter of Rights and Freedoms permits human rights violations if
they are to such reasonable limits prescribed by law as can be demonstrably
justified in a free and democratic society.
A.

A Metis Plea for Safety and Asylum

On Oct 1, 2020, Robert A. Cannon accompanied the Pro Se Applicant as she fled to
the U.S.-Canada Border at the Sweet Grass port of entry seeking refuge under the
Jay Treaty and asylum in the UNITED STATES from the persecution and torture she
was subjected to in CANADA. The Pro Se Applicant brought her Canadian passport,
Metis citizenship card, marriage certificate (see Appendix F on page 61a), many
other forms of identification, and over a thousand pages of documentation with her
to the border as part of her plea. After the Pro Se Applicant was refused entry to the
U.S. on the basis of being Metis, she subsequently filed an approximately 1214-page
asylum application with over 5 gigabytes of media and video footage of the events
discussed in the previous sections (see Appendix W on page 264a).

12

Upon being provided the foregoing information and the Pro Se Applicant's claim for
asylum, the officials of the UNITED STATES at the border isolated the Pro Se
Applicant by escorting Robert A. Cannon off of the premises and began threatening
the Pro Se Applicant with being taken into custody for applying for asylum and
attempted to coerce her into returning to CANADA without filing the same. The Pro
Se Applicant, fearing for her life, did not yield to their threats or coercion and filed
for asylum and was subsequently taken into custody where she was detained
arbitrarily, unconstitutionally, and unlawfully. She was immediately placed in an
expedited removal (see Appendix Y on page 282a). The Pro Se Applicant was first
held in custody at the U.S.-Canada border in the STATE OF MONTANA, then
transferred to the JEFFERSON COUNTY JAIL in the STATE OF IDAHO, then finally
transferred to NEVADA SOUTHERN DETENTION CENTER in the STATE OF NEVADA and
was held in custody in the STATE OF UTAH during such transfer.
The asylum officer, SCOTT ROBINSON, ZCH 193, from the CHICAGO ASYLUM OFFICE
in the STATE OF ILLINOIS, conducted the Pro Se Applicant's credible fear of
persecution interview and made his decision on October 15, 2020 alleging that she
was credible, but did not believe that she had credible fear of being persecuted by
her centrally governed international church, the courts, or the national police force
again in Canada despite her having filed for asylum from them, that her infant
sister is still detained by their authority, and evidence that those of Metis descent
are persecuted in Canada (see Appendix X on page 268a). The Pro Se Applicant was
not given her prompt review of determination by an immigration judge within seven
13

(7) days which is required by the Immigration and Nationality Act and was not
given such review of determination until after an Ex Parte Petition for a Writ of
Habeas Corpus was submitted on her behalf and filed on December 8, 2020.
A.

Another Habeas Corpus Ad Subjiciendum

On November 27, 2020, Robert A. Cannon submitted by mail from CANADA an Ex
Parte Petition for a Writ of Habeas Corpus on behalf of the Pro Se Applicant to the
United States District Court

for the

District

of

Nevada at 333 Las Vegas

Blvd. South Las Vegas, NV 89101 (see Appendix K on page 141a); such mail was
suspended by CANADA POST, the primary postal operator in CANADA, under the
guise of the Covid emergency and was not received until December 7, 2020 at 11:38
AM MST (see Appendix L on page 160a); that very day in the afternoon, the Pro Se
Applicant received word that she had been given a immigration hearing date that
Thursday, December 10, 2020 and that she would likely be deported. The petition
was filed the day after it was received on Tuesday, December 8, 2020 as a civil case
with the case number of 2:20-cv-02218-JAD-DJA and was misinterpreted as pro
se legal representation by the Pro Se Applicant instead of Robert A. Cannon (see
Appendix M on page 163a) and was suspended under the guise of the following:
“Due to this court's extremely heavy case load this review process may take several
weeks” (see Appendix N on page 165a).
On Thursday, December 10, 2020 and fifty-six (56) days after the Pro Se Applicant’s
credible fear of persecution interview, the Pro Se Applicant’s review of

14

determination was conducted by the JUDGE LINDSAY ROBERT which sought to
uphold SCOTT Robinson, ZCH 193’s credible fear findings and deport the Pro Se
Applicant without reviewing the evidence, however, the Pro Se Applicant’s lawyer
Lawrence J. Litman (“Jay”) argued that the Pro Se Applicant needed a
continuance for the evidence to be reviewed and JUDGE LINDSAY ROBERT reluctantly
granted such continuance and subsequently referred the case to JUDGE GLEN
BAKER, a judge with a better reputation. The following Tuesday on December 15,
2020, JAY presented much of the information and evidence provided in this
application to JUDGE Glen Baker and the Pro Se Applicant testified of the facts
that pertained to her. The judge was reluctant to give his decision in the court room
and purported that he would review all the evidence in his official capacity and
make his final decision at a later time.
The Pro Se Applicant’s deportation was finalized on Thursday, December 17, 2020 a
week after her first immigration hearing, when JUDGE GLEN BAKER concluded that
(1) she had not been physically harmed during her arrest and thereby had not been
tortured and did not qualify under the UN Torture Convention, and (2) she did not
qualify under any of the five bases enumerated in section 101(a)(42) of the
Immigration and Nationality Act which are race, religion, nationality, membership
in a particular social group, or political opinion (see Appendix Q on page 198a).
Given the information and evidence provided in this application, much of which was
provided to JUDGE Glen BAKER, his conclusions appear unfounded as the evidence

15

provided delineated the apartheid system which is CANADA, the resulting genocide
of those in the Pro Se Applicant’s racial groups Metis and Black-Canadians,
Canadian justices exercising extreme prejudice, and how the Pro Se Applicant was
primarily psychologically tortured but also physically tortured in such system as
she was taken to a maximum security prison for the criminally insane without
cause by the national police force and held there in isolation for eight days as
punishment for seeking remedy in court on behalf of a federal corporation. JUDGE
GLEN Baker’s primary argument for deporting the Pro Se Applicant was that she
could seek remedy for unlawful arrest in CANADA. The Pro Se Applicant is awaiting
deportation. JAY advised the Pro Se Applicant’s father DALE that her deportation
would cause the Ex Parte Petition for Writ of Habeas Corpus to be moot. The
petition was fourteen hundred eighty two (1482) pages spread over seven (7)
volumes, each of which was titled: “Book of Torture”. While the Pro Se Applicant
was seeking asylum in the UNITED STATES, the Pro Se Applicant’s father DALE
remained in CANADA to continue the litigation on behalf of DSR KARIS and the legal
battle for custody of his infant daughter KARIS who was kidnapped by his wife KlM
which was later endorsed by the courts with extreme prejudice.
A.

Extreme Prejudice

The Pro Se Applicant’s father DALE was released from BATTLEFORDS MENTAL
HEALTH Centre on August 7, 2020 fifteen (15) days after being abducted. The draft
order granting custody of his infant daughter KARIS to his wife KlM was issued on
July 23, 2020 which means that he had to appeal such draft order by August 22,
16

2020 unless granted a motion to extend pursuant to the rules of the Court of Appeal
for Saskatchewan. When DALE was released he was still suffering side-effects of the
drugs administered to him against his will in BATTLEFORDS MENTAL HEALTH
CENTRE as can been seen in the slurred language in his first meeting with DEREK
ALLCHURCH (“Derek”) in which Derek admitted to negligence (see Appendix AW on
page 505a).
On September 18, 2020, DALE on behalf of DSR KARIS submitted a Statement of
Claim and Motion under Action No. T-1115-20 to the FEDERAL COURT OF CANADA
which purported with evidence that the conspirators including the ROYAL CANADIAN
Mounted Police, the Saskatchewan Health Authority and others committed
various crimes as part of terrorist activity and that DSR KARIS needed protection
and remedy for such (see Appendix BP on page 654a). The hearing for the motion to
permitted DALE to represent DSR KARIS under Rule 120 of the court and grant
interim relief was dismissed and struck without leave to amend on October 5, 2020
despite evidence demonstrating that this case was a special circumstance to permit
DALE to represent and evidence of various crimes (see Appendix BQ on page 692a).
On October 7, 2020, DALE submitted a motion to extend and draft notice of appeal
to the Court

of

Appeal for Saskatchewan on October 8, 2020 for the draft order

granted by JUSTICE R.W. ELSON on the basis that DALE was detained and
recovering from drugs administered to him against his will during the appeal period
and KARIS was not given fair representation (see Appendix BH on page 608a).

17

JUSTICE J.A. CALDWELL presided over such motion on October 28, 2020, and
concluded with extreme prejudice that granting the motion to give KARIS fair
representation in an appeal was prejudice to KIM despite Dale’s extraordinary
circumstances and the infant KARIS being taken away from her father without fair
representation (see Appendix BI on page 615a).
On November 13, 2020 and following the Pro Se Applicant’s arbitrary,
unconstitutional, and unlawful detainment in the UNITED STATES in violation of
international instruments binding in the same, DALE on behalf of DSR KARIS T1403-20 filed a Statement of Claim in the FEDERAL COURT OF CANADA with motion
to allow him to represent under Rule 120 of the court against the MASONIC GRAND
Lodge

of

Saskatchewan, the Seventh-Day Adventist Church, various courts in

Saskatchewan, and the ATTORNEY GENERAL OF THE UNITED STATES and his agents
which delineated a conspiracy by MASONS and those who belief or support those
who believe to MASONIC dogma to cover up the mismanagement of the Covid
emergency; the court refused to accept the affidavit of service and thereby declared
the application to be abandoned on December 8, 2020 (see Appendix AA on page
336a).
On November 26, 2020, DALE attended a hearing to revisit custody of KARIS in
which JUSTICE J. ZUK presided. JUSTICE J. ZUK exercised extreme prejudice and
was hostile towards DALE seemingly as punishment for seeking remedy against the
court. JUSTICE J. ZUK accepted an affidavit by KlM which was demonstrated to be

18

perjured by DALE as the sole evidence upon which to uphold JUSTICE R.W. ELSON
orders despite much evidence that demonstrated that KARIS should be in Dale’s
care. JUSTICE J. ZUK attempted to construe DALE as mentally ill and refused to
accept new evidence to the contrary which he was permitted to do. After suspending
his decision, JUSTICE J. ZUK finally concluded that KARIS should be in Kim’s care on
December 11, 2020 (see Appendix BV on page 749a and Appendix BW on page
761a).
Dale contacted Commissioner Lucki of the Royal Canadian Mounted Police
referred Dale back to the jurisdiction that tortured him (see Appendix BJ on page
626a and Appendix BC on page 571a). DALE included constitutional questions in
one of his federal cases which questioned the constitutionality of statutes which
where used to torture him (see Appendix BR on page 705a). DALE was eventually
disfellowshiped by the SEVENTH-DAY ADVENTIST CHURCH (see Appendix BU on page
745a). Furthermore

A.

The Extraordinary Condition

On October 23, 2020, Robert A. Cannon on behalf of WlSEWORK CONSULTING INC.
(“WlSEWORK”), a Canadian corporation pursuant to the Canada Business
Corporations Act, proceeded to the STATE OF DELAWARE to assist DSR KARIS with
filing a certificate of incorporation for DSR KARIS North CONSULTING INC. (“DSR
KARIS North”) without providing legal advice. DSR KARIS planned to have the Pro

19

Se Applicant handle the documentation and to sign the certificate of incorporation
in the STATE OF DELAWARE, but was forced to have DALE sign them remotely as this
process was delayed by her arbitrary, unconstitutional, and unlawful detainment in
violation of international instruments binding the UNITED STATES as part of a
conspiracy to cover up the mismanagement of the Covid emergency.
On October 28, 2020 and under the instruction of DSR KaRIS, WlSEWORK mailed the
certificate of incorporation from the Post Office at 55 E Loockerman St in the City of
Dover in the State of Delaware to the DELAWARE SECRETARY OF STATE with an
affidavit of extraordinary condition affirmed by Robert A. Cannon in accordance
with Delaware General Corporations Law. The DELAWARE SECRETARY OF STATE
acting on behalf of the STATE OF DELAWARE was to make a conclusive determination
as to whether the extraordinary condition existed and whether it hindered the filing
of the corporation (see Appendix V on page 261a).
On November 2, 2020 at approximately 4:03 PM EST, the representative of the
Delaware Secretary

of

State acting on behalf of the State

of

Delaware called

DSR KARIS, the incorporator, to notify it that the affidavit of extraordinary
condition would not be reviewed, and in so doing violated Delaware law to cover up
the mismanagement of the Covid emergency (see Appendix U on page 254a).
If the STATE OF Delaware complied with 8 Del. C. 1953, § 103(i), the affidavit of
extraordinary condition would require the DELAWARE SECRETARY OF STATE to make
a conclusive decision on whether the abduction of DSR KARIS North’s Chief

20

Communication Officer, the Pro Se Applicant, as part of a conspiracy to cover up the
mismanagement of the Covid emergency in Saskatchewan, was a revolution or
insurrection, or rioting or civil commotion in the localities of the PROVINCE OF
Saskatchewan in the Country of Canada and the State
Montana, State

of Idaho,

State

of

Utah, and State

of Illinois,

of

State

of

Nevada in the Country

of the United States.
The refusal of the STATE OF DELAWARE to accept or make a conclusive decision as to
whether the extraordinary condition existed and whether it hindered the filing for
incorporation, and its failure to legislate a method to appeal the unlawful denial of
its SECRETARY OF State, hindered DSR Karis North from seeking remedy from
parties that violated its constitutional and statutory rights as its filing date can no
longer be corrected under 8 Del. C. 1953, § 103(i).
A.

The Supreme Court of the United States

The Pro Se Applicant on behalf of DSR KARIS NORTH, the newly founded Delaware
corporation, submitted an Ex Parte & Pro Se Petition For Extraordinary Writ to the
Supreme Court of the United States in the case of DSR Karis North
Consulting Inc. v. State

of

Delaware under original jurisdiction; she did so

while in custody at NEVADA SOUTHERN DETENTION CENTER and her lawyer JAY
witnessed her signature and mailed high priority such petition on her behalf from
the City of Las Vegas in the State of Nevada on December 7, 2020. The mail for
such application was suspended for unknown reasons and received on December 10,

21

2020, however, Robert A. Cannon delivered the required 40 copies to the SUPREME
COURT OF

the

United States in person on December 9, 2020 under open filing on

behalf of WlSEWORK CONSULTING CORP., a Delaware corporation, on behalf of DSR
KARIS NORTH. The petition contained the following respectful request for the
following remedy in the form of an alternative writ:
to compel President Donald J. Trump in his official capacity to declare the
mismanagement of the Covid emergency by MASONIC conspirators to be a national
emergency, as the same extends to the STATE OF DELAWARE and The Biden Plan to
Combat Coronavirus by the supposed presidential elect JOSEPH R. BlDEN, which
threatens the legitimacy of this presidential election and by consequence threatens
to deprive persons in the United States of America of CHRISTIAN RIGHTS AND
FREEDOMS, among them the free exercise of RELIGION and the unalienable rights to
Life, Liberty, and pursuit of Happiness.
This extraordinary writ was requested as the STATE OF DELAWARE lacked the
executive power to fix the damage it caused to the AMERICAN people and DSR KARIS
NORTH by hindering an investigation into and covering up the mismanagement of
the Covid emergency, which was crucial to the general public and the electoral
college making an informed decision in this presidential election (see Appendix R on
page 201a).
Clara on behalf of Clerk SCOTT S. HARRIS of the SUPREME COURT OF THE UNITED
STATES, filed the petition on December 15, 2020 purporting that it was received on
December 14, 2020 and arbitrarily refused to accept the petition purporting that no
remedy was specified and that individuals could not file pro se for a corporation or

22

business entity, but she cited no rules for the same as no relating rules exist (see
Appendix S on page 228a).
REASONS FOR GRANTING THE APPLICATION
Pursuant to Rule 20, and 22 of the Rules of this Court, 18 U.S.C. § 2340A and28
U.S.C. § 1561, 2241 and 2242, UN Torture Convention, UN Refugee Convention,
UN Rights of Indigenous Peoples, Article 1 section 9 clause 2, Article 3 section 3,
Amendment IV, V, VIII of the United States Constitution, the Declaration of
Independence and is both authorized and compelled to issue such writ pursuant to
28 U.S.C. § 2243 as transferring such application to the UNITED STATES DISTRICT
COURT FOR the District

of

Nevada, which suspended the first petition, would be

disagreeable to the usages and principles of law and would be Rebellion against the
United States Constitution and transferring such application to the UNITED STATES
Court

of

Appeals

for the

Ninth Circuit which has no authority to answer the

constitutional questions purported in this application some of which relate to
treaties, federal treason, and the constitutionality of IMMIGRATION COURT as a
whole. In addition Clara Houghteling is not competent to suspend the Privilege of
Writ of Habeas Corpus and take actions that shield treason, terrorism, torture and
numerous other crimes making her a conspirator to the forgoing treasonous
criminal terrorist activity. She is part of a transnational network of conspirators
whose purpose is the Invariable Pursuit of the Object. Clara Houghteling on two
separate occasions refused an affirmed testimony of treason from a citizen of the
United States.
23

It is indisputably clear that the United States District Court for the District of
Nevada suspended the Privilege of Writ of Habeas Corpus which resulted in the
concealment of the mismanagement of the Covid emergency in CANADA and the
United States

of

America. The United States District Court for the

DISTRICT OF Nevada has alleged to suspend its final decision for the Privilege of
Writ of Habeas Corpus for as much as “several weeks” because of its “extremely
heavy case load”, however, such reason for suspension of the Privilege of Writ of
Habeas Corpus is not permitted by the United States Constitution. This suspension
resulted in an investigation not being conducted in the mismanagement of the
Covid emergency and how it pertains to the Pro Se Applicant's abduction.
It is indisputably clear that rogue elements within the Supreme Court of the United
States which includes without limitation, Clara Houghteling have cause a severe
level of judicial interference effectively destroying the integrity of the Supreme
Court of the United States. The forgoing treason and masonic conspiracy which
includes terrorism and shielding the rogue agents of the Innovation Credit Union
located in Saskatchewan, Canada who are co-opting a legitimate financial
institution to fund the Invariable Pursuit of the Object. This includes the blatant
and gross judicial corruption displayed in a long train of abuses that clearly
delineates the Invariable Pursuit of the Object that begins in the Court of Queen’s
Bench for Saskatchewan in the Judicial Centre of Battleford. The Invariable
Pursuit of the Object can then be traced to the Federal Court of Canada culminating
in that court with Chief Justice Paul S. Crampton torturing Dale and shielding the
24

forgoing torture, treason, terrorist activity and the genocide of the Christians, it can
be also observed in the Court of Appeal for Saskatchewan with multiple judges
torturing Dale and punishing Robert A. Cannon. These justices includes without
limitation, Justice J.A. Caldwell, Justice J.A. Schwann, Justice J.D. Kalmakoff and
Justice Ralph K. Ottenbreit. This is four of the 11 judges caught in the act of aiding
the Invariable Pursuit of the Object which the genocide of the Christians is one of
the aims. Justice J.D. Kalmakoff aided the terrorists who have used covid to place
the lives of the citizens of Canada at risk, and he flagrantly violated the UN Torture
Convention in denying the article 13 rights of Dale and the Pro Se Applicant, and
also tortured them in the process. A complaint has been made to the Chief Justice of
that court by Dale, however the Pro Se Applicant expects that she, Dale and the
applicant for the Privilege of Writ of Habeas Corpus will be punished by the panel
of three judges on Monday March 1, 2021 as this is consistent with the actions of
the judiciary on both sides of the border, and consistent with the foregoing genocide
of Christians, torture treason and terrorist activity.
This is all in desperation to save the finances of their terrorist operations. The
judiciary in Canada has been desperately trying to protect the rogue agents of the
Innovation Credit Union who are integral to the Invariable Pursuit of the Object.
This invasion by infiltration from the Province to the North by those who adhere to
the masonic adage Solve et Coagula that desire to build a world without freedom is
the greatest threat to the United States as outlined by the Jesuit affiliated Carlo
Maria Vigano.
25

An investigation into the torture and treason and the conspirators in the lower
courts necessitates that this Court exercises its jurisdiction in these matters, for
without a public hearing it is highly probably that the judiciary will torture the Pro
Se Applicant, and act in a manner to shield the Invariable Pursuit of the Object; the
United States Court of Appeals for the Ninth Circuit will not receive the public
attention necessary to ensure judicial fairness as there has been elements even
within this court that are conspirators to the forgoing Invariable Pursuit of the
Object.
It is indisputably clear that the suspension of the Privilege of Writ of Habeas
Corpus for any reason or any means not permitted by the United States
Constitution as a part of a conspiracy to cover up the mismanagement of the Covid
emergency which is an act of treason and it is the Invariable Pursuit of the Object
which is a matter of national and international importance.

CLAIMS FOR RELIEF
COUNT ONE
CONSTITUTIONAL CLAIM
The Pro Se Applicant alleges and incorporates by reference of the foregoing
application. The Pro Se Applicant’s detainment violates her rights guaranteed
under the United States Constitution including without limitation:
Amendment IV rights: security of person,

26

Amendment V rights: nor be deprived of life, liberty, or property, without
due process of law, and
Amendment VIII rights: no cruel and unusual punishments inflicted.
COUNT TWO
TREATY CLAIM
The Pro Se Applicant alleges and incorporates by reference of the foregoing
application. The Pro Se Applicant’s continued detainment violates the United States
Constitution and the following United Nations treaties:
Article 2, 3, 7, 10, 22, 26, and 33 of the U.N. Rights of Indigenous Peoples,
Article 1 and 3 of the U.N. Torture Convention,
Article 3 and 4 of the U.N. Refugee Convention.

COUNT THREE
STATUTORY CLAIM
The Pro Se Applicant alleges and incorporates by reference of the foregoing
application. The Pro Se Applicant’s continued detainment violates the United States
Constitution, the U.N. Rights of Indigenous Peoples, the U.N. Torture Convention,
the U.N. Refugee Convention, and the Immigration and Nationality Act.
PRAYER FOR RELIEF
WHEREFORE, Pro Se Applicant prays that this Court grant the following relief:
Assume jurisdiction over this matter;

27

Issue a writ of habeas corpus ordering the Respondents to release the Pro
Se Applicant on her own recognizance with all her personal effects including without
limitation her Canadian passport, Metis citizenship card, and other identification
documents, asylum and detainment documentation, cell phone, purse, and clothing;
and
Grant any other relief which this Court deems just and proper in
accordance with applicable law for the Pro Se Applicant.

February 28,2021

Respectfully submitted,
Kaysha F.N. Dery
1292 95th St.,
North Battleford, SK S9A 0G2
306 830-4417
Tel:
Email: unity@dsrkarisconsulting. com

lc
Kaysha F.N. Dery u

28

VERIFICATION OF PRO SE APPLICANT
I, KAYSHA F.N. DERY, hereby certify that I am familiar with the case of the named
petitioner and that the facts as stated above are true and correct to the best of my
knowledge and belief.

/X

t

Ur

KAYSHA F.N. DE

12?

Affirmed hftW^mtrat the City of Las Vegas^inthe^tafgof Nevada, in the Country
of the United States of America, this 28th day of February, 2021.

Notjg^fihlic——

29

NEVADA NOTARIAL CERTIFICATE
(JURAT OF SUBSCRIBING WITNESS)

State of Nevada}
County of Clark

}

On March 1,2021 [date] Lawrence Litman

, [subscribing witness] personally appeared
before me, whom I know to be the person who signed this jurat of a subscribing witness while
under oath, and swears that he or she was present and witnessed Kaysha Derry_________
[signer of the document] sign his or her name to the above document.
^
... J
.
Signature of subscribirig'Witness
Signed and sworn before me on S>U | U [date] by
(Seal)

V*.<£V

0-

fartT7

r—TSSATOLUFSbN
®

Notary Public
State of Nevada

Copyright © 2018 NotarvAcknowledoement.com. All Rights Reserved.

[subscribing witness].

S'M

Signature of notarial officer

h,tjh/i/ JuJzU

t7

Title (and Rank)

Additional material
from this filing is
available in the
Clerk's Office.

